                                                          IG-01-007




AUDIT                      COST SHARING FOR ENVIRONMENTAL CLEANUP
REPORT                                     EFFORTS

                                       December 8, 2000




                            OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

         Assistant Inspector General for Auditing
         Code W
         NASA Headquarters
         Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request, to the
extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.


Acronyms

CERCLA          Comprehensive Environmental Response, Compensation, and Liability
                Act of 1980
CoE             Corps of Engineers
DoD             Department of Defense
ECRP            Environmental Compliance and Restoration Program
EPA             Environmental Protection Agency
FUDS            Formerly Used Defense Site
GAO             General Accounting Office
IPO             Institutional Program Office
NIP             NASA Industrial Plant
NPG             NASA Procedures and Guidelines
NPL             National Priorities List
OIG             Office of Inspector General
PRP             Potentially Responsible Party
RCRA            Resource Conservation and Recovery Act of 1976
SSFL   Santa Susana Field Laboratory
W                                                                                        December 8, 2000


TO:                A/Administrator

FROM:              W/Inspector General

SUBJECT:           INFORMATION: Cost Sharing for Environmental Cleanup Efforts
                   Report Number IG-01-007


The NASA Office of Inspector General (OIG) has completed an audit of NASA's
implementation of the requirements of NASA Procedures and Guidelines (NPG) 8850.1,1
“Environmental Investigation and Remediation - Potentially Responsible Party (PRP)
Identification and Analysis.” The NPG established requirements, responsibilities, procedures,
and guidelines for identifying PRP's and for developing cost sharing or cost recovery
arrangements between responsible parties. We found that the Agency has made considerable
progress in meeting the NPG requirements which was not the case when we began our field
work. During this audit, many of the reviewed Centers and component facilities accelerated
their planned or ongoing efforts to identify PRP's for sharing environmental costs with the
Agency, which has led to NASA establishing cost sharing arrangements. However, NASA has
at least 44 contaminated sites that require a preliminary PRP analysis that has yet to be either
started or completed and two additional sites that require the completion of a full PRP analysis.2
Until NASA completes the preliminary and/or full PRP analysis for all these sites, management
cannot determine the extent to which it should be seeking cost sharing or cost recovery
arrangements with PRP's for about $140.7 million that will be required to clean up these sites.
We estimated that NASA may be able to avoid as much as $37.9 million in cleanup costs
through cost sharing agreements for these sites. We also found that the NASA Centers and
component




1
  Examples of PRP’s include past owners and operators of NASA-owned facilities, as well as transporters of hazardous
waste to and from the facilities.
2
  A preliminary PRP analysis identifies PRP's, the contaminates, general causes for the contamination, and when it
occurred. A full PRP analysis is conducted for any site for which the PRP is known to be an entity other than NASA
and includes PRP searches and cost sharing or cost recovery evaluations of PRP's. Details on both analyses are in
Appendix F.
                                                                                                                      2


facilities audited did not always coordinate the PRP analysis and subsequent actions with the
Institutional Program Offices (IPO's)3 who provide the key management control in ensuring
compliance with the NPG.

Background

NASA established NPG 8850.1 in response to a General Accounting Office report4 that
concluded NASA needed such a policy because the Agency was not adequately determining
which PRP's should be sharing in the costs of cleaning up NASA contaminated sites. The NPG
established requirements, responsibilities, procedures, and guidelines for identifying PRP's and
for developing cost sharing or cost recovery arrangements between responsible parties.

Recommendation

NASA management should ensure that all preliminary and full PRP analyses are promptly
completed and should clarify existing guidance to better define the types of projects subject to
NPG 8850.1 requirements and to identify Center and component facility IPO's.

Management Response and OIG Evaluation

Management did not concur with our recommendations. Management explained that it could
concur if the first recommendation addressed only those sites with adequate site data to support
the conclusions of the PRP analysis. NASA agreed, however, to send a letter to the affected
NASA Centers/facilities requesting them to submit preliminary PRP analyses within 6 months.
The letter will review the requirements for conducting preliminary PRP analysis for sites
expected to cost $500,000 or more to clean up and for submitting the PRP analysis to the
proper IPO's. Management will send the letter to the responsible IPO's as additional clarifying
guidance in addressing implementation of NPG 8850.1.

Management’s planned actions are responsive to the intent of the recommendations. In making
our recommendations, we did not intend for NASA to expedite the completion of the
preliminary and full PRP analyses in those cases for which schedules already exist or
determinations were pending from regulatory authorities. In such cases, we agree that NASA is
actively working to implement the NPG requirements. Our concern relates to those sites for
which NASA personnel were not gathering sufficient data to complete the required PRP
analysis. The actions NASA planned in response to the recommendations show a strong

3
  To ensure alignment between programs and institutional capabilities, the NASA Administrator normally designates
the Enterprise Associate Administrator for the predominant activity at each Center as that Center’s IPO. As an IPO,
the Associate Administrator is responsible for ensuring that the Center has the capability to meet its programmatic and
functional commitments and long-term responsibilities in a safe and effective manner. The IPO is also responsible for
implementation, conformance, and assurance of safe and efficient functional operations.
4
  GAO issued Audit Report GAO/NSIAD-97-98 entitled, "Environmental Cleanup Costs: NASA Is Making Progress
in Identifying Contamination, but More Effort Is Needed," in June 1997.
                                                                                               3


management commitment toward arriving at a final determination for the many sites still requiring
a completed preliminary or full PRP analysis. However, management did not concur with our
estimate of $37.9 million potential cost avoidance by having NASA agree to cost sharing or
cost recovery arrangements with other PRP's for those sites still needing to be cleaned up. We
will continue to work with management to resolve this amount.

Details on the status of the recommendations are in the finding section of the report.


[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of Cost Sharing for Environmental Cleanup Efforts
                  FINAL REPORT
AUDIT OF COST SHARING FOR ENVIRONMENTAL CLEANUP
                     EFFORTS
W                                                                         December 8, 2000


TO:             J/Associate Administrator for Management Systems

FROM:           W/Assistant Inspector General for Auditing

SUBJECT:        Final Report on the Survey of Cost Sharing for
                Environmental Cleanup Efforts
                Assignment Number A9902800
                Report Number IG-01-007


The subject final report is provided for your information and use. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. The recommendations will remain open for reporting purposes until
corrective action is completed. Please notify us when action has been completed on the
recommendations, including the extent of testing performed to ensure corrective actions are
effective.

If you have questions concerning the report, please contact Mr. Chester A. Sipsock, Program
Director, Environmental and Financial Management Audits, at (216) 433-8960, or Mr.
Fredrick E. Angle, Auditor-in-Charge, at (256) 544-0070. We appreciate the courtesies
extended to the audit staff. See Appendix I for the final report distribution.




[original signed by]
Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Acting Director, Management Assessment Division
JE/Director, Environmental Management Division
                                              2


ARC/Director, Ames Research Center
GRC/Director, John H. Glenn Research Center
                                              3




GSFC/Director, Goddard Space Flight Center
KSC/Director, John F. Kennedy Space Center
MSFC/Director, Marshall Space Flight Center
MAF/Manager, Michoud Assembly Facility
SSC/Director, John C. Stennis Space Center
WFF/Director, Wallops Flight Facility
                                                 4




bcc:
AIGA, IG, Reading Chrons
JE/Director, Environmental Management Division
ARC/Audit Liaison Representative
GRC/Audit Liaison Representative
GSFC/Audit Liaison Representative
KSC/Audit Liaison Representative
MSFC/Audit Liaison Representative
MAF/Audit Liaison Representative
SSC/Audit Liaison Representative
WWF/Audit Liaison Representative
W/GRC/C. Sipsock
W/GSFC/R. Dix
W/MSFC/R. Angle
Contents

Executive Summary, i

Introduction, 1

Finding and Recommendations , 2

  Sharing Environmental Cleanup Costs

Appendix A - Objectives, Scope, and Methodology, 8

Appendix B - Summary of Negotiated Cost Sharing Agreements
             as of July 31, 2000, 10

Appendix C - Summary of NASA’s Actions as of July 31, 2000, to
             Implement the PRP Analysis Requirements of
             NPG 8850.1, 12

Appendix D - Summary of Sites Meeting NPG Criteria for PRP
            Analysis That Have Not Been Completed as of
            July 31, 2000, 13

Appendix E - Summary of Estimated Potential Cost Avoidance, 14

Appendix F - Requirements of NASA Procedures and Guidelines
            8850.1, 15

Appendix G - Management's Response, 17

Appendix H - OIG Comments on Management's Response, 23

Appendix I - Report Distribution, 26
                             NASA Office of Inspector General

IG-01-007                                                                             December 8, 2000
 A9902800
                 Cost Sharing for Environmental Cleanup Efforts

                                         Executive Summary

Background. In 1997, the U.S. General Accounting Office (GAO) reviewed NASA’s
environmental cleanup costs in response to a congressional request.5 GAO reported that
NASA had not developed an overall policy for determining the potential for cost recovery and
that NASA generally had not determined which PRP’s should be sharing cleanup costs. GAO
recommended that NASA issue a policy statement concerning PRP’s and cost recovery. In
June 1997 in response to GAO’s review, NASA issued NPG 8850.1, “Environmental
Investigation and Remediation - Potentially Responsible Party Identification and Analysis,” to be
in effect for 5 years.

Prior to issuance of the NPG, NASA had some success in identifying PRP’s and in successfully
negotiating cost sharing arrangements. For example, in 1994 and 1996, NASA efforts resulted
in the successful negotiation of three cost sharing arrangements with other PRP’s for 27
contaminated sites (see Appendix B). As a result of those arrangements, NASA avoided an
estimated $89.6 million in environmental cleanup costs that were paid by other responsible
parties.

Objectives. The overall audit objective was to determine whether NASA is adequately
implementing the requirements of NPG 8850.1. The specific objectives were:

 •   to assess whether NASA has ensured that environmental cleanup costs have been and will
     be shared among the responsible parties and
 •   to identify sites for which NASA should be seeking cost sharing or cost recovery
     arrangements.

The objectives, scope, and methodology are discussed in detail in Appendix A.

Results of Audit. Although NASA has made some progress in identifying PRP's and in
sharing site cleanup costs, NASA has not fully implemented the requirements of NPG 8850.1.
Specifically, some Centers/facilities audited have not conducted the preliminary analysis
necessary to start the PRP identification and cost sharing agreement process for 44 of 78
contaminated sites that require the preliminary PRP analysis and have not involved IPO’s in the

5
  The former Chairman and Ranking Minority Member of the Subcommittee on National Security, International Affairs,
and Criminal Justice Committee on Government Reform and Oversight, House of Representatives, requested the GAO
review.
process, as required by the NPG. Also, one Center had not completed a full PRP analysis for
two contaminated sites. As a result, NASA has not identified all contaminated sites for which it
should be seeking cost sharing or cost recovery arrangements. Foster Wheeler6 estimated the
cleanup costs to total about $140.7 million7 at sites for which a preliminary or full PRP analysis
has not yet been completed. We estimated that NASA may be able to avoid up to $37.9
million in cleanup costs through cost sharing agreements for those sites.

Recommendations. NASA management should ensure full implementation of NPG 8850.1
by:
• expediting the completion of the preliminary and full PRP analyses;
• providing guidance supplementing NPG 8850.1 to better define the types of projects
    subject to NPG requirements and to identify the IPO's for each NASA Center/facility; and
• emphasizing to the IPO's the Agency's policy regarding their responsibilities to ensure
    completion of the PRP analyses for their Centers, review the PRP analyses, approve the
    proposed agreements, and coordinate review of proposed agreements with the appropriate
    Headquarters offices.




6
  Foster Wheeler is an environmental consulting firm under contract to the NASA Environmental Management Division,
Office of Management Systems. One of the contract tasks was for Foster Wheeler to determine the estimated cost to
clean up NASA-owned contaminated sites and to help NASA comply with environmental laws and regulations.
7
  This estimate includes Foster Wheeler’s estimates totaling $129.7 million to clean up 44 sites that require a
preliminary PRP analysis and estimates totaling $11.0 million to clean up 2 sites that require a full PRP analysis.
Completion of the PRP analysis for all 46 sites should identify how much of the total cost of clean up could be avoided
through cost sharing negotiations or cost recovery actions. See Appendix D.


                                                          ii
Introduction

NASA is responsible for compliance with Federal environmental laws, including the Resource
Conservation and Recovery Act (RCRA) of 1976 and the Comprehensive Environmental
Response, Compensation, and Liability Act (CERCLA) of 1980, as amended.8 RCRA
regulates the generation, transportation, storage, disposal, and cleanup of hazardous wastes.
Both laws impose a responsibility for site cleanup on the owner and/or operator of a facility.
Under CERCLA, the party carrying out a cleanup may seek cost reimbursement from other
parties the law would hold liable. These parties include past owners, operators, contractors,
and a broad range of other PRP’s. A Federal agency can use the provisions for cost recovery
under CERCLA to recover costs from PRP’s for an RCRA9 site. However, NASA
Environmental Management Division officials stated that the ability for cost recovery under
RCRA has several substantial limitations.




8
  The CERCLA applies to contaminated sites identified by the Environmental Protection Agency (EPA) on the
National Priorities List (NPL). The EPA generally includes sites that have been abandoned and sites that pose the most
severe environmental threat on the NPL. The RCRA generally applies to sites that are not identified by EPA on the
NPL.
9
  Pursuant to 42 United States Code 9607 (a), Subsection (4), a Federal agency can recover cleanup costs for removal or
remedial actions for contaminated sites not listed on the NPL. EPA regulations for cost recovery are found in 40 Code
of Federal Regulations 300.
Finding and Recommendations

Sharing Environmental Cleanup Costs

NASA has not fully implemented the requirements of NPG 8850.1. Specifically, some NASA
Centers/facilities have not conducted the preliminary analyses to start the PRP identification and
cost sharing agreement process and have not involved IPO’s in the process, as required by the
NPG. These conditions occurred primarily because the Agency has not emphasized completion
of PRP analyses and because Agency policy does not identify the IPO's for each of the
Centers/facilities. Consequently, NASA has not initiated cost sharing or cost recovery
arrangements with other parties who share responsibility for cleanup costs at 46 of 78 sites
estimated to total about $140.7 million (see Appendix D). With cost sharing or cost recovery
arrangements, NASA may be able to avoid up to $37.9 million of the total costs (see Appendix
E).

NPG 8850.1 Requirements

NPG 8850.1 contains two important requirements that must be complied with in order to meet
the objectives of identifying PRP’s and developing cost sharing or cost recovery arrangements
with the PRP’s. One requirement is for Center Environmental Office officials to conduct
preliminary PRP analyses for contaminated sites that are expected to result in projects under the
Environmental Compliance and Restoration Program (ECRP).10 The preliminary PRP analysis
is a critical first step in the PRP identification and cost sharing agreement process. Appendix F
describes NPG requirements for preliminary and full PRP analysis and for cost sharing/cost
recovery agreements.

Another requirement is for Center Environmental Office officials to provide a preliminary and full
PRP analysis and proposed cost sharing or cost recovery agreements to the IPO’s for review
and approval. The IPO’s are responsible for (1) ensuring completion of the PRP analyses at
the Centers, (2) reviewing the PRP analyses, (3) approving proposed agreements, and (4)

10
  The Facilities Project Implementation Handbook, NPG 8820.2C, addresses ECRP. Chapter 8 of the NPG states the
following concerning NASA’s ECRP:
          •         The ECRP provides field installations with the necessary resources to plan,
                    develop, and execute required environmental studies and projects to achieve and
                    maintain compliance with environmental laws and regulations in conformance
                    with NASA’s environmental policy.
          •         The ECRP is a separate program within the NASA Construction of Facilities
                    Program.
          •         An ECRP project in the NASA Construction of Facilities Program either
                    addresses (1) the construction or modification of facilities, as required for
                    environmental compliance; (2) the cleanup and remediation of hazardous
                    substance contaminated sites; or (3) a single environmental study effort or a
                    study necessary to support a planned environmental project and study
                    estimated to cost $500,000 or more.


                                                      2
coordinating review of proposed agreements with appropriate Headquarters officials. The
IPO’s provide the key management control to ensure that the NPG requirements are followed.
While the NPG requires preparation of a preliminary PRP analysis for contaminated sites
expected to result in projects under the ECRP, the NPG does not explain that an analysis is to
be prepared for sites expected to cost $500,000 or more to clean up. Also, although the NPG
requires NASA to provide PRP analyses and proposed cost sharing or cost recovery
agreements to the IPO’s, the policy does not provide a link to existing Agency policy that
identifies the IPO’s for each NASA Center/facility.11

NPG 8850.1 Implementation

Since issuance of NPG 8850.1 in June 1997, some NASA Centers and facilities have made
progress in implementing the new policy requirements. At the same time, however, other
Centers and facilities have not completed a preliminary PRP analysis for many qualifying
contaminated sites, and most Centers and facilities have excluded the IPO’s from the PRP
analysis and cost sharing/cost recovery agreement process.

Preliminary PRP Analysis. As of July 31, 2000, Environmental Office officials at 6 of the 12
NASA Centers/facilities we reviewed had completed a preliminary PRP analysis for 34 (43.6
percent) of the 78 contaminated sites expected to result in projects (see
Appendix C). NASA determined it was the sole responsible party for 26 of the 34 sites.
NASA negotiated cost sharing arrangements with other PRP’s for six of the remaining eight
sites. As a result of these efforts, NASA has avoided an estimated $39.0 million in
environmental cleanup costs (see Appendix B). For two sites, NASA has started a full PRP
analysis to determine how cost sharing or cost recovery arrangements should proceed.

Although NASA's efforts are commendable, NASA has not begun a preliminary PRP analysis
for 44 eligible sites. In its August 1999 cost study, Foster Wheeler estimated the costs to clean
up the 44 sites at about $129.7 million. The 44 sites involve 6 of the 12 NASA
Centers/facilities reviewed (see Appendix C). In addition, another two sites with an estimated
cleanup cost of $11.0 million require completion of a full PRP analysis based on the results of
previously completed preliminary analyses. Until the preliminary and full PRP analyses are
completed for these sites, NASA cannot determine how much of the cleanup costs can be
shared with other responsible parties. Appendix D shows the NASA Centers/facilities that
need to complete the PRP analyses.

Environmental officials at most of the locations reviewed stated that completing the requirements
of NPG 8850.1 has been a low priority. At some of the locations, officials said they did not



11
  Our review included work at seven NASA Centers and five NASA component facilities. Examples of component
facilities are the Michoud Assembly Facility (Michoud) and the Wallops Flight Facility (Wallops). The NASA Centers
and component facilities are identified in Appendix A.


                                                        3
prepare preliminary PRP analyses for contaminated sites because they knew NASA was the
sole PRP for site clean up. Additionally, one Center responsible for
a contractor-operated facility believed that the contractor had complied with the NPG
requirements. However, contractor officials stated they had not complied with the NPG
because they believed that NASA had already done so.

IPO Role in the PRP Process. Involvement of the IPO’s during the PRP process is a key
management control mandated by NPG 8850.1. Chapter 2 of NPG 8850.1 requires the IPO’s
to review the preliminary and full PRP analyses and to review and approve any cost sharing or
cost recovery agreements. However, environmental officials did not involve the IPO’s in the
PRP identification and cost sharing agreement process.

Since the NPG was issued in June 1997, NASA has completed a preliminary PRP analysis for
34 sites and a full PRP analysis for 5 sites and has negotiated 3 cost sharing agreements. Only
five preliminary analyses and one proposed cost sharing agreement were coordinated with the
responsible IPO.

The primary reason for the exclusion of the IPO’s from the PRP process was confusion over
who is to fulfill the role of the IPO. In some cases, the environmental officials believed they
were to function as the IPO. Almost no one interviewed knew who the IPO was for their
location.

NPG 1000.2, “NASA Strategic Management Handbook,” issued February 2000, discusses
IPO responsibilities. Paragraph 2.3.1.6 of the NPG states that the Enterprise12 Associate
Administrator for the predominant activity at each Center is normally designated as the IPO for
that Center. For example, since the predominant activity at Kennedy is Space Flight, the
Associate Administrator for the Office of Space Flight would serve in an IPO capacity, unless
the NASA Administrator chose to designate another Enterprise Associate Administrator to
assume the IPO responsibilities. NPG 8850.1 does not identify the IPO and does not provide
a cross-reference to NPG 1000.2.

By excluding the IPO’s from the PRP process, the environmental officials have eliminated the
primary oversight control intended by NPG 8850.1.

Estimate of Cost Avoidance

Until NASA implements the NPG requirements for preliminary and full PRP analyses, NASA
cannot determine what portion of the estimated cleanup costs for the affected sites will be
available for cost sharing or cost recovery.

12
  The NASA Administrator has divided the Agency into five major functional areas called Strategic Enterprises. The
Strategic Enterprises include Aerospace Technology, Biological and Physical Research, Earth Science, Human
Exploration and Development of Space, and Space Science.


                                                         4
Relying on historical data, we attempted to estimate the amount of cost avoidance NASA could
realize from completing the required PRP analyses and negotiating cost sharing or cost recovery
agreements. Environmental Office officials at six NASA Centers/facilities negotiated eight cost
sharing agreements from 1992 through July 31, 2000 (the audit cutoff date), that will result in an
estimated cost avoidance of $128.6 million (see Appendix B) in past and future environmental
cleanup costs (96.9 percent of the total cost to clean up the sites). After the policy was issued,
Environmental Office officials completed preliminary PRP analyses for 34 sites (see Appendix
C). Of the 34 sites, 8 or 23 percent of the sites, required full PRP analyses. The Environmental
Office officials negotiated cost sharing agreements for six of the eight sites that resulted in a cost
avoidance of $39.0 million. The Environmental Office officials are likely to negotiate cost
sharing agreements for the remaining two sites with estimated clean up costs of $11.0 million.

Environmental Office officials did not prepare preliminary PRP analyses for 6 of 44 sites that
were projected to result in projects because the officials concluded that NASA is the PRP for
these sites. We did not verify their conclusions and included only the other 38 sites in the cost
avoidance calculations. The 38 sites are estimated to cost $122.3 million to clean up. In
calculating the potential cost avoidance, we first assumed that NASA would determine that cost
sharing or cost recovery agreements would be indicated for 9 (23 percent) of the 38 sites. We
based this assumption on NASA’s past experience with the 34 sites discussed earlier for which
preliminary PRP analyses had been completed. We then assumed that NASA could arrange
for other PRP’s to pay 96.9 percent of the cleanup costs based on the experience with the eight
cost sharing agreements negotiated from 1992 through July 31, 2000. We estimated that
NASA could experience a cost avoidance of as much as $27.3 million ($122.3 million times 23
percent times 96.9 percent). Appendix E shows the details of our calculations.

Environmental Office officials at one NASA Center have not completed full PRP analyses for
two sites that are expected to result in projects under the ECRP. In the August 1999 cost
study, Foster Wheeler estimated that those sites would cost NASA a total of $11.0 million.
We estimated that NASA could avoid costs of as much as $10.7 million ($11.0 million times
96.9 percent) by completing full PRP analyses and negotiating cost sharing agreements for the
two sites. Appendix E shows the details of our calculations.

We also conducted a Monte Carlo 13 simulation analysis to calculate the estimated cost
avoidance from completing the preliminary and full PRP analyses and negotiating the
appropriate cost sharing and cost recovery agreements. The Monte Carlo analysis identified a
cost avoidance that was greater than the cost avoidance identified in the estimate we calculated

13
  Simulation is any analytical method that is meant to imitate a real-life system. Monte Carlo simulation is a system
that uses random numbers to measure the effects of uncertainty in a spreadsheet model. The software randomly
generates values for uncertain variables over and over to simulate a model. The simulation calculates numerous
scenarios by repeatedly picking values from the probability distribution for the uncertain variables and using those
values to develop a frequency distribution of the results. After hundreds or thousands of trials, you can view sets of
values and the certainty of any particular value.


                                                           5
using historical data. To be conservative, we chose to use the historical data calculations for our
estimate.




                                                 6
Recommendations, Management's Response, and Evaluation of Response

The Associate Administrator for Management Systems should ensure full
implementation of NPG 8850.1 by:

     1. Expediting the completion of the preliminary and full PRP analyses at those
        Centers/facilities that have not yet completed the analyses.

     2. Providing guidance supplementing NPG 8850.1 to better define the types of
        projects subject to NPG requirements and to identify the IPO’s for each NASA
        Center/facility.

     3. Emphasizing to the IPO’s that NPG 8850.1 requires them to ensure completion
        of the PRP analyses for their Centers, review the PRP analyses, approve the
        proposed agreements, and coordinate review of proposed agreements with the
        appropriate Headquarters offices.

Management's Response. Nonconcur. Management explained that it could concur if the
first recommendation addressed only those sites with adequate site data to support the
conclusions of the PRP analysis. However, NASA agreed to send a letter to five
Centers/component facilities14 requesting submittal of the preliminary PRP analyses within 6
months for the sites with enough information to prepare the analyses. The letter will review the
requirements for conducting preliminary PRP analyses for sites expected to cost $500,000 or
more to clean up and for submitting the PRP analyses to the respective IPO's. The letter will
also request that Centers identify those sites for which sufficient data has not yet been obtained
to complete the PRP analysis. Management will also send another letter and a copy of this
report to the IPO's.

Management disagreed with our estimated potential cost avoidance of $49.5 million and
believed that $7.5 million was a more accurate amount. Management also provided various
other comments for improving report accuracy and presentation.

The complete text of management's response is in Appendix G.

Evaluation of Response. We believe the planned actions are responsive to the intent of the
recommendations and show a strong management commitment toward arriving at a final
determination for the many sites still requiring a completed preliminary or full PRP analysis. In
making our recommendations, we did not intend for NASA to expedite the completion of the
preliminary and full PRP analyses in those cases where schedules already existed or

14
  The five Centers/component facilities receiving letters are the John H. Glenn Research Center at Lewis Field, the
Goddard-Space Flight Center Wallops Flight Facility, the Lyndon B. Johnson Space Center, the John F. Kennedy
Space Center, and the Michoud Assembly Facility.


                                                           7
determinations were pending from regulatory authorities. For those cases, we agree that NASA
is actively working toward implementing the requirements of NPG 8850.1. However, our audit
work provided strong evidence that not all NASA Centers were aggressively working toward
gathering the data necessary to move the PRP process forward in a timely manner for certain
sites. Consequently, we reaffirm our conclusion that NASA cannot determine the extent to
which it should seek cost sharing or cost recovery arrangements with affected PRP's until
management makes a final determination for these sites.

With regard to our estimated potential cost avoidance, we revised our original estimate of $49.5
million to $37.9 million based on updated information in management's response. For example,
we were able to verify management's position that the Stennis Space Center had completed
negotiations for a cost sharing agreement with the Air Force in July 2000. Absent any
additional data that we could readily verify and relying on data obtained from NASA's
environmental consulting firm, we believe that our revised potential cost avoidance of $37.9
million, which is based on NASA's historical experience, is more realistic at this time than the
$7.5 million being advocated by management. We reaffirm that a better estimate of a cost
avoidance cannot be known until NASA completes all the PRP analyses required by NPG
8850.1.

Appendix H contains our detailed responses to the additional comments made by NASA
management.




                                               8
                Appendix A. Objectives, Scope, and Methodology

Objectives

The overall audit objective was to determine whether NASA was adequately implementing the
requirements of NPG 8850.1. The specific objective was to assess whether NASA
Environmental Office officials were ensuring that environmental cleanup costs have been and will
be shared among the PRP’s and were identifying sites where NASA should be seeking cost
sharing or cost recovery arrangements.

Scope and Methodology

We selected 12 NASA Centers/facilities for review: Ames Research Center (Ames), John H.
Glenn Research Center at Lewis Field (Glenn), Goddard Space Flight Center (Goddard),
Lyndon B. Johnson Space Center (Johnson), John F. Kennedy Space Center (Kennedy),
George C. Marshall Space Flight Center (Marshall), Michoud Assembly Facility (Michoud),
NASA Industrial Plant (NIP), Yellow Creek Production Facility (Yellow Creek), John C.
Stennis Space Center (Stennis), Wallops Flight Facility (Wallops), and White Sands Test
Facility (White Sands). We selected Ames, Stennis, Marshall, Kennedy, and White Sands
because Foster Wheeler's estimates of cleanup costs for those sites were significant. We
included the NIP and Wallops at the request of management. We reviewed Michoud and
Yellow Creek because Marshall is responsible for those facilities. We reviewed Johnson and
Goddard because those Centers are responsible for work at the NIP, White Sands, and
Wallops. We reviewed Glenn in order to increase the coverage of the sites expected to result in
projects. We did not include the Jet Propulsion Laboratory or the Santa Susana Field
Laboratory (SSFL) in the review because we had previously reviewed those facilities and
issued separate reports on cost sharing activities at those facilities.15 Marshall is responsible for
the SSFL engine testing facility.

From the 12 NASA Centers/facilities, we selected 78 sites for review that were projected to
cost $500,000 or more each to clean up as noted in the August 1999 Foster Wheeler cost
study (see footnote 5). Foster Wheeler estimated the cleanup costs for the 78 sites to total
about $603.6 million (see Appendix C).

We provided questions addressing the requirements of NPG 8850.1 to the Environmental
Office managers at each of the NASA Centers/facilities identified above. Each of the managers
responded and provided documentation supporting (1) preliminary and full PRP analyses of
NASA contaminated sites and (2) cost sharing and/or cost recovery agreements with the PRP’s
for the sites. We then made follow-up visits to five locations

15
  The NASA Inspector General issued report IG-97-024, “Cost Sharing For Cleanup Activities at JPL [Jet Propulsion
Laboratory],” dated June 6, 1997; and report IG-98-024, “Cost Sharing for Santa Susana Field Laboratory Cleanup
Activities,” dated August 18, 1998.


                                                        9
Appendix A

to conduct survey work. We verified compliance with NPG 8850.1 by reviewing the answers
to the questions and supporting documentation and by discussions with NASA officials.

Management Controls Reviewed

We reviewed management controls related to (1) the preparation and completion of preliminary
and full PRP analyses for NASA-owned facilities and (2) the negotiation of cost sharing or cost
recovery agreements for the contaminated sites requiring such agreements. Management
control weaknesses are addressed in the finding section of this report.

Computer-Processed Data

Computer-processed data did not play a significant role in this review relative to the
development of the audit findings. Therefore, the validity and reliability of such data is not an
issue for this report.

Audit Field Work

We conducted field work from September 1999 through June 2000 at the NASA Centers/
facilities identified in the scope section. We performed this audit in accordance with generally
accepted government auditing standards.




                                                 10
      Appendix B. Summary of Negotiated Cost Sharing Agreements
                        as of July 31, 2000

                                 Year of Cost       No.         Estimated Total     NASA’s Share         Estimated Cost
                                  Sharing           of           Cost for Site       of Cleanup          Avoidance for
    Centers/Facilities           Agreement         Sites           Clean Up             Cost                 NASA
Cost Sharing Agreements Negotiated after NPG 8850.1 Was Issued in June 1997
Ames Research Center1            1992 & 1998           2             $30,000,000                 $0           $30,000,000
Kennedy Space Center2               1998               1              $3,181,739         $1,306,739            $1,875,000
Stennis Space Center3               2000               1              $8,470,000         $2,795,100            $5,674,900
Wallops Flight Facility4            1998               2              $1,500,000                 $0            $1,500,000
Total cost avoidance
negotiated after policy
                                                       6          $43,151,739        $4,101,839           $39,049,900
issued
Cost Sharing Agreements Negotiated before NPG 8850.1 Was Issued
Glenn Research Center5               1996              8             $76,600,000                  $0          $76,600,000
Marshall Space Flight                1994             13             $10,000,000                  $0          $10,000,000
Center6
Yellow Creek7                        1994              6               $3,000,000                 $0            $3,000,000
Total cost avoidance
negotiated before
                                                     27           $89,600,000                    $0       $89,600,000
policy was issued
Total cost avoidance
negotiated both
                                                     33         $132,751,739         $4,101,839          $128,649,900
before and after
policy was issued
Cost sharing                                                             100%                3.1%                 96.9%
percentages

In summary, NASA officials at six NASA Center/facilities negotiated eight cost sharing arrangements from 1992
through July 31, 2000. These cost sharing arrangements were negotiated at (1) Ames in 1992 and 1998; (2) Kennedy in
1998; (3) Stennis in 2000; (4) Wallops in 1998; (5) Glenn in 1996; and (6) Marshall in 1994 for sites at Marshall and
Yellow Creek. These cost sharing arrangements will allow NASA to avoid $128.6 million of past and future
environmental cleanup cost (96.9 percent of the total cost to clean up the sites of $132.8 million).

1
  Ames officials negotiated cost sharing agreements with the Navy in 1992 and with the Navy and a contractor in 1998.
These agreements covered the same two sites. The officials stated that they did not provide copies of the preliminary
or full PRP analyses to the IPO for Ames. The officials did provide a copy of the proposed 1998 cost sharing
agreement to the Environmental Management Division, Office of Management Systems, and to the IPO for Ames.
Based on input from the Navy, Ames officials estimated that the agreements will save NASA $30 million.
2
  Kennedy officials negotiated a cost sharing agreement with the Air Force in 1998. Based on input from the Air Force,
Kennedy officials estimated that this agreement will save NASA $1.9 million. The officials did not provide a PRP
analysis or the proposed cost sharing agreement to the IPO for Kennedy.
3
  Stennis officials negotiated a cost sharing agreement with the Air Force on July 19, 2000. We estimated that this
agreement will result in cost avoidance for NASA of $5.7 million based on the agreement and Foster Wheeler's August
1999 estimate of the cost to cleanup this site. The agreement requires NASA to pay one third of the cleanup cost and
the Air Force to pay two thirds for this site. We computed the cost avoidance for NASA by multiplying the Air
Force's share (67 percent) times Foster Wheeler's estimate of $8.5 million to clean up this site.




                                                           11
Appendix B

4
  Wallops officials negotiated a cost sharing agreement with the Corps of Engineers (CoE) in 1998. However, the
officials did not get CoE officials to sign the agreement because they agreed to fund cleanup of this site with Formerly
Used Defense Site (FUDS) program funds. The Congress approved FUDS program funds to clean up formerly
Department of Defense (DoD)-owned facilities that were contaminated by the DoD. Based on input from the Air
Force, Wallops officials estimated that this agreement will save NASA $1.5 million. Wallops officials did not provide
PRP analyses or the proposed cost sharing agreement to the IPO for Wallops.
5
  Glenn officials negotiated a cost sharing agreement with the CoE for eight Glenn sites at Plum Brook, Ohio, in 1996.
However, the officials did not get CoE officials to sign the agreement because CoE officials agreed to fund cleanup of
these sites with FUDS funds. Based on input from the CoE, Glenn officials estimated that this agreement will save
NASA $76.6 million.
6
  Marshall officials negotiated a cost sharing agreement with the Army in 1994. Based on input from the Army,
Marshall officials estimated that this agreement will save NASA $10 million.
7
  Marshall officials negotiated a cost sharing agreement with the Tennessee Valley Authority in 1994. Based on input
from the Tennessee Valley Authority, MSFC officials estimated that this agreement will save NASA $3 million.




                                                           12
                    Appendix C. Summary of NASA’s Actions as of July 31, 2000, to Implement
                                the PRP Analysis Requirements of NPG 8850.1
                                                         The dollar amounts shown are in millions.
                                              ARC     GRC    GSFC       JSC     KSC       MSFC       MAF     NIP   YC   SSC     WFF     WS     TOTAL
     No. of sites meeting NPG criteria for     12      1        5        3        24          3       6       0     0    12      10      2       78
     a preliminary PRP analysis
     Estimated cleanup costs for sites that   $53.6    $.8      $8.4     $4.3     $92.1     $3.1     $15.4   $0    $0   $50.3   $18.6   $357   $603.6
     need a preliminary PRP analysis
     No. of sites where a preliminary PRP       0       1        0         3       23         3        6      0    0      0       8      0      44
     analysis was not completed
     Estimated cleanup costs for sites         $0      $.8       $0      $4.3      $89      $3.1     $15.4   $0    $0    $0     $17.1    $0    $129.7
     where preliminary PRP analysis was
     not completed
     No. of sites with preliminary PRP         12       0        5         0        1         0        0      0    0     12       2      2      34
     analyses since issuance of NPG
     8850.1
     No. of sites with preliminary PRP         10       0        5         0        0         0        0      0    0      9       0      2      26
12




     analyses since issuance of NPG
     8850.1 where it was determined that
     a full PRP analyses was not needed
     No. of sites with preliminary PRP          2       0        0         0        1         0        0      0    0      0       2      0       5
     analyses since issuance of NPG
     8850.1 where full PRP analyses
     were completed and cost sharing
     arrangements were negotiated
     Estimated cost avoidance where cost      $30      $0        $0       $0      $1.9       $0       $0     $0    $0    $0     $1.5     $0    $33.4
     sharing arrangements were
     negotiated since issuance of NPG
     No. of sites with preliminary PRP          0       0        0         0        0         0        0      0    0      2       0      0       2
     analyses since issuance of NPG
     8850.1 where cost sharing
     arrangements should be negotiated
     Estimated costs to clean up sites         $0      $0        $0       $0       $0        $0       $0     $0    $0   $11.0    $0      $0    $11.0
     where cost sharing arrangements
     may be negotiated
     No. of preliminary PRP analyses            0       0        5         0        0         0        0      0    0      0       0      0       5
provided to IPO

Legend
ARC - Ames Research Center GRC - Glenn Research Center           GSFC - Goddard Space Flight Center   JSC - Johnson Space Center
KSC - Kennedy Space Center MSFC - Marshall Space Flight Center   MAF - Michoud Assembly Facility      NIP - NASA Industrial Plant
YC - Yellow Creek          SSC - Stennis Space Center            WFF - Wallops Flight Facility        WS - White Sands
    Appendix D. Summary of Sites Meeting NPG Criteria for PRP
     Analysis That Have Not Been Completed as of July 31, 2000

Sites Meeting NPG Criteria for a Preliminary PRP Analysis:
                              Number         Sites that Require     Estimated Site
      Centers/Facilities       of Sites     Completion of PRP       Cleanup Costs
                                                  Analysis
Glenn Research Center              1     Preliminary PRP Analysis         $799,000
Johnson Space Center               3     Preliminary PRP Analysis       $4,345,000
Kennedy Space Center              23     Preliminary PRP Analysis      $88,958,000
Marshall Space Flight Center       3     Preliminary PRP Analysis       $3,089,000
Michoud Assembly Facility          6     Preliminary PRP Analysis      $15,405,000
Wallops Flight Facility            8     Preliminary PRP Analysis      $17,122,000
Total Sites Requiring
Preliminary PRP Analyses          44                                  $129,718,000

Sites Requiring Completion of a Full PRP Analysis:
Stennis Space Center              2      Full PRP Analysis             $11,015,000
Total Sites Requiring Full
PRP Analyses                      2                                    $11,015,000

Total Sites Requiring             46                                   $140,733,000
PRP Analyses




                                         13
       Appendix E. Summary of Estimated Potential Cost Avoidance

Recommendation 1 results in as much as $37.9 million in funds put to better use.
                                                                   Estimated
                                                                  Sites Where
                                                                  Preliminary
               Type of PRP                                       PRP Analyses          NASA’s          Estimated Cost
                Analysis                                         Will Require          Share of        Avoidance for
               Required or        No.      Estimated Total          Full PRP          the Cost to          NASA
               Negotiations       of        Cleanup Cost            Analysis           Clean Up          (96.9%)2
    Center                       Sites                               (23%)             (3.1%)1
Require Preliminary and, if Necessary, Full PRP Analysis 3:
                 Preliminary
KSC               and Full           23          $88,958,000          $20,460,340        $634,271            $19,826,069
                 Preliminary
WFF               and Full            8          $17,122,000           $3,938,060        $122,080             $3,815,980
                 Preliminary
MAF               and Full            6          $15,405,000           $3,543,150        $109,838             $3,433,312
                 Preliminary
GRC               and Full            1             $799,000             $183,770           $5,697              $178,073
Subtotals 4             38                 $122,284,000          $28,125,320          $871,886          $27,253,434
Require Full PRP Analysis 5:
SSC           Full        2                  $11,015,000                                                $10,673,535

Total Estimated Cost                40     $133,299,000                                                   $37,926,969
Avoidance

Legend
GRC - Glenn Research Center                        SSC - Stennis Space Center
KSC - Kennedy Space Center                         WFF - Wallops Flight Facility
MAF - Michoud Assembly Facility

1
  See percentage under the “NASA’s Share of Cleanup Cost” column in Appendix B.
2
  See percentage under the “Estimated Cost Avoidance for NASA” column in Appendix B.
3
  Using historical data, we calculated the estimated cost avoidance of $27.3 million that would result from completing the
preliminary PRP analyses for the 38 NASA sites identified and from necessary full PRP analyses and cost sharing
negotiations. We used the cost sharing agreements NASA negotiated from 1992 through 2000 (see Appendix B) and the
results of preliminary analyses conducted after NPG 8850.1 was issued for 34 NASA-owned sites. We used the
following assumptions:
•     cost sharing agreements for the 38 sites will result in savings comparable to the amount realized through
      agreements that were negotiated from 1992 through 2000 (NASA will realize a cost avoidance of about 96.9
      percent of the total cleanup costs) (see Appendix B) and
•     results of preliminary PRP analyses of sites at other Centers will be similar to the findings for the preliminary PRP
      analyses conducted for 34 NASA-owned sites (about 23 percent of the sites will be candidates for cost sharing)
      (see Appendix C).
4
  The subtotals do not include six sites that meet the criteria for preparing preliminary PRP analyses because NASA
Environmental Office officials have determined that NASA is the PRP without input from the IPO’s.
5
  We identified two sites at Stennis for which Environmental Office officials should complete full PRP analyses and
provide them to the IPO for Stennis. Stennis should complete negotiations of cost sharing agreements with the Army




                                                           14
for the two sites after receiving instructions from the Stennis IPO. We calculated the estimated cost avoidance of $10.7
million for these sites by multiplying 96.9 percent times the total $11.0 million estimated clean-up costs for these sites.




                                                            15
Appendix F. Requirements of NASA Procedures and Guidelines
8850.1

This appendix summarizes NASA's general requirements for PRP analyses and cost sharing or
cost recovery agreements.

Preliminary PRP Analysis. NPG 8850.1 requires Center Environmental Office officials to
conduct preliminary PRP analyses for contaminated sites that are expected to result in projects
under the ECRP. The preliminary analysis includes identifying PRP’s, the contaminates, the
general causes for the contamination, and when the contamination occurred. While conducting
the preliminary analysis, Center officials may find that some of the contaminated sites are the
result of direct actions by NASA or of past actions by unknown parties. Further PRP analysis
is not required when NASA is clearly the only responsible party for contaminated sites or when
there is no information available to identify other PRP’s. NPG 8850.1 requires Center
Environmental Office officials to document determinations that no further PRP analysis is
warranted and to report the results to their IPO’s. For sites that do not warrant a further PRP
analysis, Center officials are required to furnish copies of the determination and supporting
documentation to the NASA Office of General Counsel, the Office of Management Systems,
and the Office of Inspector General. NPG 8850.1 requires the IPO to review each
determination to ensure that (1) a further PRP analysis is not warranted and (2) there are no
conflicts of interest with the support contractors or NASA officials conducting the preliminary
PRP analysis.

Full PRP Analysis. NPG 8850.1 requires Center Environmental Office officials to conduct a
full PRP analysis for any site for which the PRP is known to be someone other than NASA.
Full PRP analyses include PRP searches and cost sharing or cost recovery evaluations of the
PRP’s. NPG 8850.1 requires the Center Environmental Office officials to provide the results of
a full PRP analysis to the cognizant IPO, the Chief Financial Officer, the Office of General
Counsel, the Office of Procurement, and the Office of Management Systems at NASA
Headquarters. The IPO’s are required to review the information to determine whether to
pursue negotiations of a cost sharing arrangement based on the full PRP analysis. The IPO’s
must provide instructions to the Center Environmental Office officials (as to whether to begin
negotiations) within 30 days of receipt of results on a full PRP analysis.

Cost Sharing or Cost Recovery Agreements. NPG 8850.1 requires Center Directors to
designate Center officials to lead negotiations with PRP’s when appropriate. The lead
negotiators are to negotiate (1) cost sharing agreements so that future environmental cleanup
costs are shared among the PRP’s and (2) cost recovery agreements so that past environmental
cleanup costs are shared among the PRP’s. The NPG allows the Center/facility lead
negotiators to begin negotiations if their IPO's have not given contrary direction after 30 days.
These negotiations may result in proposed cost sharing or cost recovery agreements. The NPG
requires Center Directors to submit proposed cost


                                               16
Appendix F

sharing agreements to their IPO’s for approval. It also requires the IPO to coordinate the
proposed cost sharing agreements with the Chief Financial Officer, the Office of General
Counsel, the Office of Procurement, and the Office of Management Systems for concurrence.
Depending on the circumstances of the proposed agreements and pursuant to the advice of the
Office of General Counsel, the IPO’s may be required to request concurrence from the
Department of Justice. The IPO’s are required to publish Notices of Proposed Settlements in
the Federal Register. The Center Directors may enter into agreements for NASA only after
the IPO’s have fulfilled these requirements.




                                             17
Appendix G. Management's Response




               18
                  Appendix G




See Appendix H,
OIG Comment 1




                               19
     Appendix G




20
                  Appendix G




See Appendix H,
OIG Comment 3


See Appendix H,
OIG Comment 2




                               21
     Appendix G




              See Appendix H,
              OIG Comment 2


              See Appendix H,
              OIG Comment 3


              See Footnote 16

              See Appendix H,
              OIG Comment 3




22
Appendix G




             23
            Appendix H. OIG Comments on Management's Response

In addition to providing comments on the OIG recommendations in this report, NASA commented
on the validity of our estimated potential cost avoidance. NASA also provided other comments to
improve report accuracy or presentation. We have incorporated management's comments into the
report as necessary. The following presents management's comments and our evaluation of those
comments for those matters that we consider significant and for which we did not make a change to
the report.

Management's Comment. NASA management believes the OIG potential cost avoidance
estimate of $49.5 million is incorrect. Management stated that this estimate is based on 41 sites
located at the John F. Kennedy Space Center (Kennedy), Wallops Flight Facility (Wallops),
Michoud Assembly Facility (Michoud), John H. Glenn Research Center at Lewis Field (Glenn), and
John C. Stennis Space Center (Stennis), of which 23 sites are at Kennedy. The estimate for those
sites is based on past experience, where a different set of 32 sites were reviewed and analyzed. Of
the 32 sites for which cost sharing arrangements were negotiated, NASA clearly had minimal
responsibility. In contrast, with reference to the 41 sites in Appendix E, Kennedy, Glenn, and
Michoud environmental officials believe that NASA has significant responsibility for the sites located
on those facilities and do not anticipate pursuing other PRP’s. At Wallops, the Corps of Engineers
is already conducting remedial activities at sites for which it is the responsible entity. Only Stennis
has concluded that it has a basis to pursue PRP’s. Stennis has negotiated an agreement with a PRP
for one of the sites and is preparing a full PRP analysis for the other two sites. The cost avoidance
at those sites is estimated at $7.5 million. Therefore, the $7.5 million represents the potential cost
avoidance available to NASA and the final report should reflect only the $7.5 million as a legitimate
cost avoidance.

1. OIG Comments. We based our estimated potential cost avoidance of $49.5 million on
NASA's historical experience in negotiating cost sharing agreements for other Agency facilities. We
revised this estimate to $37.9 million based on new information NASA provided after the draft
report was issued.16 We continue to believe that the Agency’s past record of accomplishments
provides a sound basis for estimating future potential cost avoidances. As discussed in the report,
we purposely adopted a conservative approach to developing our estimate as the application of a
sophisticated mathematical analysis resulted in an even higher estimate of cost avoidance. NASA’s
opposition to our estimate of cost avoidance is based on management’s perception that NASA will
have the significant responsibility for the cleanup costs for those sites still requiring a completed
preliminary PRP analysis. While this position eventually may prove valid, we continue to believe
that the true potential for cost avoidance cannot be known until NASA determines which sites will
require a preliminary and full PRP analyses and then completes the required analyses, as required
under the Agency’s existing PRP policy.


16
  We revised our estimate based on the results of the completed preliminary PRP analysis for two White Sands Test
Facility sites in New Mexico and on a completed full PRP analysis for one of the Stennis sites.


                                                          24
Appendix H

Preliminary PRP analyses still need to be completed for the Kennedy, Wallops, and Michoud sites,
and a full PRP analysis needs to be completed for the two Army sites at Stennis. By negotiating
cost sharing agreements, NASA should be able to avoid costs of about $11 million for clean-up for
the two sites at Stennis that were contaminated by the Army. We base this estimate on Foster
Wheeler's August 1999 cost estimates and NASA's historical experience with cost sharing
agreements. We reaffirm our cost avoidance estimate of $37.9 million and the need to complete the
preliminary and full PRP analyses in a timely manner.

Management's Comment. The report concludes that the Centers/facilities have excluded the
IPO's from the PRP analysis and cost sharing/cost recovery agreement process. We believe that
the report overstates this limited problem. NASA personnel submitted the preliminary PRP
analyses completed by Dryden Flight Research Center, Goddard Space Flight Center, Marshall
Space Flight Center and Langley Research Center to the IPO as required. Although Ames
Research Center and Stennis Space Center did not submit their preliminary PRP analyses directly to
the IPO, both of those Centers have negotiated cost sharing agreements that had been coordinated
with their IPO’s. The Wallops Flight Facility cost sharing agreement with the Corps of Engineers
did not require a signed agreement, thus it did not require IPO coordination. In any case, the
Environmental Management Division will send a letter to several Centers where coordination may
be an issue. This letter will be similar to the one that the Office of Space Flight recently sent to the
Centers under its jurisdiction regarding the requirements of the NPG.17 In addition, management
will send this OIG report and the follow-up correspondence to the IPO's.

2. OIG Comments. We did not include Dryden and Langley in our review of 12 NASA
Centers/facilities and cannot comment on whether they properly coordinated with their respective
IPO's. As discussed in the report, our conclusions concerning the lack of coordination with IPO's
for the locations reviewed were supported by discussions with Center environmental officials. For
example, officials at Glenn, Kennedy, Marshall, and Wallops stated that they did not provide copies
of PRP analyses or proposed cost sharing agreements for their sites to their IPO because they did
not know who the IPO's were for those sites. Although Ames officials stated that they provided a
copy of the proposed cost sharing agreement to their IPO, the IPO for Ames could not remember
receiving and approving the agreement. We discussed IPO responsibilities with representatives
from the Office of Space Flight and the Office of Aerospace Technology. As a result of those
discussions, we concluded that representatives from the Office of Space Flight were knowledgeable
of IPO responsibilities. However, representatives from the Office of Aerospace Technology were
not as knowledgeable. We commend the Office of Space Flight for sending a clarification letter to
its Centers as a result of discussions with the OIG auditor. We also believe that the corrective
actions planned by management should improve the level of coordination originally intended by the
NPG.

17
 This letter was sent to five locations -- the Lyndon B. Johnson Space Center, John F. Kennedy Space Center, George C.
Marshall Space Flight Center, John C. Stennis Space Center, and White Sands Test Facility.


                                                          25
                                                                                      Appendix H

Management's Comment. The reported value of $506.2 million should be revised to reflect the
later comment (on Appendixes C and D) regarding completion of the preliminary PRP analysis by
Marshall and the White Sands Test Facility.

3. OIG Comment. We revised Appendixes C and D and other portions of the report as
appropriate based on the completed preliminary PRP analyses provided for the White Sands Test
Facility sites. However, we did not change any data in the appendixes related to the Marshall sites
because the new information provided by NASA management addressed sites that differed from the
ones referenced in the appendixes.




                                                26
                          Appendix I. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
R/Associate Administrator for Aerospace Technology
Y/Associate Administrator for Earth Science

NASA Centers

Director, Ames Research Center
Director, John H. Glenn Research Center
Director, Goddard Space Flight Center
Director, John F. Kennedy Space Center
Director, George C. Marshall Space Flight Center
Manager, Michoud Assembly Facility
Director, John C. Stennis Space Center
Director, Wallops Flight Facility

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
 Acquisitions Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space




                                              27
Appendix I

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                               28
                   NASA Assistant Inspector General for Auditing
                                  Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Cost Sharing For Environmental Cleanup Efforts

Report Number:                                             Report Date:

Circle the appropriate rating for the following statements.

                                                          Strongl                              Strongl
                                                             y      Agree   Neutra   Disagre   y         N/A
                                                           Agree              l         e      Disagre
                                                                                                  e
1.   The report was clear, readable, and logically           5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.                5       4        3         2         1      N/A
3.   We effectively communicated the audit objectives,       5       4        3         2         1      N/A
     scope, and methodology.
4.   The report contained sufficient information to          5       4        3         2         1      N/A
     support the finding(s) in a balanced and objective
     manner.


Overall, how would you rate the report?

      Excellent                 Fair
      Very Good                 Poor
      Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

   Yes: ______                                 No: ______

   Name: __________________________

   Telephone: _______________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Chester A. Sipsock, Program Director, Environmental and Financial Management Audits

Fredrick E. Angle, Auditor-in-Charge

Betty G. Weber, Operations Research Manager

Nancy C. Cipolla, Report Process Manager

Annette Huffman, Program Assistant
